No. 20-18

 

IN THE

Supreme Court of the United States

ARTHUR GREGORY LANGE,

Petitioner,
v.

STATE OF CALIFORNIA,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE CALIFORNIA COURT OF APPEAL,
First APPELLATE DISTRICT

BRIEF IN OPPOSITION

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
3,405 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 14, 2020.

Colin Casey bs

Wilson-Epes Printing Co., Inc.
